Soa
I

C@QCKLE

L eg LB rie f s E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-565

ANTONIO PASSARO, JR., PETITIONER
v.
COMMONWEALTH OF VIRGINIA, ET AL.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 3577 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 9th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ Kv 2 fs d,
‘State of Nebraska . ,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

38984
